  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




    ANTHEM HEALTH PLANS OF
  MAINE, INC., OVERSTATED ITS
MEDICARE SEGMENT PENSION ASSETS
      AS OF JANUARY 1, 2006



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Patrick J. Cogley
                                                 Regional Inspector General

                                                          June 2013
                                                        A-07-13-00404
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Anthem Health Plans of Maine, Inc., overstated its Medicare segment pension assets by
 $483,815 as of January 1, 2006.


WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contract and Cost Accounting Standards 412
and 413. The Centers for Medicare & Medicaid Services (CMS) incorporated this language into
the Medicare contracts beginning with fiscal year 1988. Previous Office of Inspector General
reviews found that Medicare contractors did not always correctly identify and update the
segmented pension assets.

The objectives of this review were to determine whether Anthem Health Plans of Maine, Inc.
(Anthem Maine), complied with Federal requirements and the Medicare contracts’ pension
segmentation requirements when (1) implementing the prior audit recommendation to decrease
the Medicare segment pension assets as of January 1, 2003, and (2) updating the Medicare
segment’s pension assets from January 1, 2003, to January 1, 2006.

BACKGROUND

Anthem Maine, a subsidiary of WellPoint, Inc. (WellPoint), administers Medicare Part A and
Regional Home Health Intermediary operations under cost reimbursement contracts with CMS.

On June 5, 2000, Anthem Insurance Companies, Inc. (Anthem), acquired Associated Hospital
Service of Maine doing business as Blue Cross Blue Shield of Maine. Effective December 31,
2000, Associated Hospital Service of Maine Retirement Plan merged into the Anthem Cash
Balance Pension Plan. On November 30, 2004, Anthem merged with WellPoint Health
Networks, Inc., and changed its name to WellPoint. On January 1, 2006, the Anthem Cash
Balance Pension Plan was renamed the WellPoint Cash Balance Pension Plan. Also, effective
November 17, 2006, WellPoint consolidated its Government contracting segments into one
segment, AdminaStar Federal, Inc. (AdminaStar), which included the Anthem Maine Medicare
segment. In addition, as of that same date, AdminaStar changed its corporate name to National
Government Services, Inc. (NGS). Thus, although we are addressing this report to NGS, we will
associate the term Anthem Maine with our findings and recommendation regarding the update of
the Anthem Maine Medicare segment’s pension assets from January 1, 2003, through January 1,
2006.

We performed a prior pension segmentation audit at Anthem (A-07-04-00181, issued
October 18, 2005), which brought the Anthem Maine Medicare segment pension assets to
January 1, 2003. We recommended that Anthem decrease its Anthem Maine Medicare segment
pension assets by $192,694 and, as a result, recognize $4,794,103 as the Anthem Maine
Medicare segment pension assets as of January 1, 2003.



Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                        i
WHAT WE FOUND

Anthem Maine implemented the prior audit recommendation to recognize $4,794,103 as the
Anthem Maine Medicare segment pension assets as of January 1, 2003. Regarding our second
objective, Anthem Maine identified Medicare segment pension assets of $4,472,179 as of
January 1, 2006; however, we determined that the Medicare segment pension assets were
$3,988,364. Therefore, Anthem Maine overstated the Medicare segment pension assets by
$483,815. Anthem Maine overstated the Medicare segment pension assets because it did not
have controls to ensure that it calculated those assets in accordance with Federal requirements
and the Medicare contracts’ pension segmentation language when updating the Medicare
segment pension assets from January 1, 2003, to January 1, 2006.

WHAT WE RECOMMEND

We recommend that Anthem Maine decrease the Medicare segment pension assets as of
January 1, 2006, by $483,815, and recognize $3,988,364 as the Medicare segment pension
assets.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NGS concurred with our findings and recommendation.
Anthem Maine’s Medicare contract was transitioned to NGS effective November 17, 2006;
therefore, NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report; we
accepted these suggestions and have incorporated them into this final report.




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                          ii
                                                    TABLE OF CONTENTS


INTRODUCTION ................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objectives .................................................................................................................... 1

           Background .................................................................................................................. 1

           How We Conducted This Review................................................................................ 2

FINDINGS ............................................................................................................................... 2

           Prior Audit Recommendation ...................................................................................... 3

           Update of Medicare Segment Pension Assets ............................................................. 3
                 Contributions and Transferred Prepayment Credits Understated .................... 3
                 Benefit Payments Understated ......................................................................... 3
                 Net Transfers Understated ............................................................................... 3
                 Earnings, Net Expenses Understated ............................................................... 4

RECOMMENDATION ........................................................................................................... 4

AUDITEE COMMENTS......................................................................................................... 4

OFFICE OF INSPECTOR GENERAL RESPONSE .............................................................. 4

APPENDIXES

    A: Audit Scope and Methodology .................................................................................... 5

    B: Statement of Market Value of Pension Assets for the
       WellPoint Cash Balance Pension Plan for the Period
       January 1, 2003, to January 1, 2006 ............................................................................ 7

    C: Federal Requirements Related to Pension Segmentation ............................................ 9

    D: Auditee Comments ...................................................................................................... 10




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                                                                       iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contract and Cost Accounting Standards
(CAS) 412 and 413. The Centers for Medicare & Medicaid Services (CMS) incorporated this
language into the Medicare contracts beginning with fiscal year 1988. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

OBJECTIVES

The objectives of this review were to determine whether Anthem Health Plans of Maine, Inc.
(Anthem Maine), complied with Federal requirements and the Medicare contracts’ pension
segmentation requirements when (1) implementing the prior audit recommendation to decrease
the Medicare segment pension assets as of January 1, 2003, and (2) updating the Medicare
segment’s pension assets from January 1, 2003, to January 1, 2006.

BACKGROUND

Anthem Maine, a subsidiary of WellPoint, Inc. (WellPoint), administers Medicare Part A and
Regional Home Health Intermediary operations under cost reimbursement contracts with CMS.

On June 5, 2000, Anthem Insurance Companies, Inc. (Anthem), acquired Associated Hospital
Service of Maine doing business as Blue Cross Blue Shield of Maine. Effective December 31,
2000, Associated Hospital Service of Maine Retirement Plan merged into the Anthem Cash
Balance Pension Plan. On November 30, 2004, Anthem merged with WellPoint Health
Networks, Inc., and changed its name to WellPoint. On January 1, 2006, the Anthem Cash
Balance Pension Plan was renamed the WellPoint Cash Balance Pension Plan. Also, effective
November 17, 2006, WellPoint consolidated its Government contracting segments into one
segment, AdminaStar Federal, Inc. (AdminaStar), which included the Anthem Maine Medicare
segment. In addition, as of that same date, AdminaStar changed its corporate name to National
Government Services, Inc. (NGS). Thus, although we are addressing this report to NGS, we will
associate the term Anthem Maine with our findings and recommendation regarding the update of
the Anthem Maine Medicare segment’s pension assets from January 1, 2003, through January 1,
2006.

We performed a prior pension segmentation audit at Anthem (A-07-04-00181, issued
October 18, 2005), which brought the Anthem Maine Medicare segment pension assets to
January 1, 2003. We recommended that Anthem decrease its Anthem Maine Medicare segment
pension assets by $192,694 and, as a result, recognize $4,794,103 as the Anthem Maine
Medicare segment pension assets as of January 1, 2003.




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                          1
HOW WE CONDUCTED THIS REVIEW

We reviewed Anthem Maine’s implementation of the prior audit recommendation; identification
of its Medicare segment; and update of the Medicare segment assets from January 1, 2003, to
January 1, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDINGS

Anthem Maine implemented the prior audit recommendation to recognize $4,794,103 as the
Anthem Maine Medicare segment pension assets as of January 1, 2003. Regarding our second
objective, Anthem Maine identified Medicare segment pension assets of $4,472,179 as of
January 1, 2006; however, we determined that the Medicare segment pension assets were
$3,988,364. Therefore, Anthem Maine overstated the Medicare segment pension assets by
$483,815. Anthem Maine overstated the Medicare segment pension assets because it did not
have controls to ensure that it calculated those assets in accordance with Federal requirements
and the Medicare contracts’ pension segmentation language when updating the Medicare
segment pension assets from January 1, 2003, to January 1, 2006.

Appendix B presents details of the WellPoint Cash Balance Pension Plan assets from January 1,
2003, to January 1, 2006, as determined during our audit. Table 1 below summarizes the audit
adjustments required to update the Medicare segment pension assets in accordance with Federal
requirements.

                      Table 1: Summary of Audit Adjustments
                                             Per Audit   Per Anthem                        Difference
                                                             Maine
Prior Audit Recommendation                    $4,794,103    $4,794,103                              $0

Update of Medicare Segment Assets
  Contributions and Prepayment Credits                           1,915,953     1,878,747         37,206
  Benefit Payments                                             (2,947,785)   (2,335,137)     (612,648)
  Net Transfers                                                (1,893,986)   (1,882,888)       (11,098)
  Earnings, Net Expenses                                         2,120,079     2,017,354        102,725
Overstatement of Medicare Segment Assets                                                      $483,815




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                                  2
PRIOR AUDIT RECOMMENDATION

Anthem Maine implemented the prior audit recommendation (A-07-04-00181) which
recommended that Anthem decrease the Anthem Maine Medicare segment pension assets by
$192,694 and thus recognize $4,794,103 of Anthem Maine Medicare segment pension assets as
of January 1, 2003.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

The Medicare contract requires that Medicare contractors update the Medicare segment pension
assets yearly in accordance with the CAS. The CAS requires that the asset base be adjusted by
contributions, permitted unfunded accruals, income, benefit payments, and expenses.

For details on the Federal requirements and the Medicare contract, see Appendix C.

The following are our findings regarding the update of the Medicare segment pension assets
from January 1, 2003, to January 1, 2006.

Contributions and Transferred Prepayment Credits Understated

The audited contributions and transferred prepayment credits are based on the assignable pension
costs. In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit. For
details on these Federal requirements, see Appendix C.

Anthem Maine understated contributions and transferred prepayment credits by $37,206 for the
Medicare segment. The understatement occurred primarily because of differences in the asset
base used to compute the assignable pension costs, upon which the contributions and prepayment
credits were based. As a result, Anthem Maine understated the Medicare segment pension assets
by $37,206.

Benefit Payments Understated

Anthem Maine understated benefit payments for the Medicare segment by $612,648. The
understatement occurred because Anthem Maine incorrectly recorded the amount of a benefit
payment in 2004. This understatement of benefit payments resulted in an overstatement of the
Medicare segment pension assets by $612,648.

Net Transfers Understated

Anthem Maine understated net transfers out of the Medicare segment by $11,098. The
understatement occurred primarily because Anthem Maine incorrectly identified participants
who transferred out of the Medicare segment. This understatement of the net transfer adjustment
resulted in an overstatement of the Medicare segment pension assets by $11,098.

Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                            3
Earnings, Net Expenses Understated

Anthem Maine understated investment earnings, less administrative expenses, by $102,725 for
the Medicare segment, primarily because its 2003 weighted average value (WAV) calculation
incorrectly included the assets related to the Anthem Health Plans of Virginia, Inc., Retirement
Program (Anthem Southeast) merger that occurred on December 31, 2003. In addition, Anthem
Maine used incorrect contributions and transferred prepayment credits, benefit payments, and net
transfers (discussed above), to develop the Medicare segment pension asset base. In our audited
update, we allocated earnings, net expenses based on the applicable CAS requirements. For
details on these Federal requirements, see Appendix C.

                                        RECOMMENDATION

We recommend that Anthem Maine decrease the Medicare segment pension assets as of
January 1, 2006, by $483,815, and recognize $3,988,364 as the Medicare segment pension
assets.

                                       AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our findings and recommendation.
Anthem Maine’s Medicare contract was transitioned to NGS effective November 17, 2006;
therefore, NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report. These
comments clarified information pertaining to entity and pension plan names as well as the
effective date of the Government contract segments’ consolidation.

NGS’s comments are included in their entirety as Appendix D.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s comments, we accepted the technical comments and have incorporated
them into this final report.




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                           4
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

Scope

We reviewed Anthem Maine’s implementation of the prior audit recommendation; identification
of its Medicare segment; and update of the Medicare segment assets from January 1, 2003, to
January 1, 2006.

Achieving our objectives did not require us to review Anthem Maine’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment and the
update of the Medicare segment’s assets to ensure adherence to the Medicare contracts, CAS
412, and CAS 413.

We completed our audit work in November and December 2012.

Methodology

To accomplish our objectives, we took the following steps:

    •     We reviewed the portions of the Federal Acquisition Regulation, CAS, and the
          Medicare contracts applicable to this audit.

    •     We reviewed the annual actuarial valuation reports prepared by WellPoint’s actuarial
          consulting firms, which included the pension plan’s assets, liabilities, normal costs,
          contributions, benefit payments, investment earnings, and administrative expenses. We
          used this information to calculate the Medicare segment assets.

    •     We obtained and reviewed the pension plan documents and Department of
          Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
          assets.

    •     We interviewed WellPoint staff responsible for identifying the Medicare segment to
          determine whether the segment was properly identified in accordance with the Medicare
          contracts.

    •     We reviewed WellPoint’s accounting records to verify the segment identification and
          benefit payments made to the Medicare segment.

    •     We reviewed the prior segmentation audit performed at Anthem (A-07-04-00181) to
          determine the beginning market value of assets.

    •     We provided the CMS Office of the Actuary with the actuarial information necessary
          for it to calculate the Anthem Maine Medicare segment pension assets from
          January 1, 2003, to January 1, 2006.

    •     We reviewed the CMS actuaries’ methodology and calculations.

Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                           5
We performed this review in conjunction with the following audits and used the information
obtained during these audits during this review:

    •   Anthem Health Plans of Maine, Inc., Did Not Claim Some Allowable Medicare Pension
        Costs for Fiscal Years 2003 Through 2005 (A-07-13-00405),

    •   Anthem Health Plans of New Hampshire, Inc., Understated Its Medicare Segment
        Pension Assets as of January 1, 2006 (A-07-13-00406),

    •   Anthem Health Plans of New Hampshire, Inc., Did Not Claim Some Allowable Medicare
        Pension Costs for Fiscal Years 2003 Through 2005 (A-07-13-00407),

    •   National Government Services, Inc., Understated Its Medicare Segment Pension Assets
        as of January 1, 2010 (A-07-13-00408), and

    •   National Government Services, Inc., Did Not Claim Some Allowable Medicare Pension
        Costs for Fiscal Years 2003 Through 2006 (A-07-13-00409).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                           6
                                           APPENDIX B: STATEMENT OF MARKET VALUE OF PENSION ASSETS
                                                FOR THE WELLPOINT CASH BALANCE PENSION PLAN
                                                FOR THE PERIOD JANUARY 1, 2003, TO JANUARY 1, 2006

                                                                                                    Anthem
                                                                             “Other”             New Hampshire                                 Anthem Maine
                   Description                           Total Company       Segments               Segment              NGS Segment             Segment

     Assets January 1, 2003                      1/          $615,266,988     $587,811,989             $1,066,467            $21,594,429              $4,794,103

     Prepayment Credits                          2/                     0      (4,564,241)                243,725              3,704,635                615,881
     Contributions                               3/            65,000,000      65,000,000                       0                      0                      0
     Other Transactions                          4/           187,077,099     187,077,099                       0                      0                      0
     Earnings, Net Expenses                      5/           130,802,578     124,178,263                 223,306              5,256,726              1,144,283
     Benefit Payments                            6/           (61,198,247)    (58,130,416)               (565,058)            (2,214,866)              (287,907)
     Transfers                                   7/                     0       1,757,989                      32             (1,568,631)              (189,390)

     Assets January 1, 2004                                 $936,948,418     $903,130,683                $968,472           $26,772,293              $6,076,970

     Prepayment Credits                                                 0       (4,466,299)               236,302              3,600,628                629,369
     Contributions                                             10,000,000       10,000,000                      0                      0                      0
     Other Transactions                                                 0                0                      0                      0                      0
     Earnings, Net Expenses                                    96,892,114       93,048,973                121,928              3,074,529                646,684
     Benefit Payments                                         (71,819,385)     (66,927,468)              (135,543)            (3,404,623)            (1,351,751)
     Transfers                                                          0        2,384,375               (186,544)              (954,014)            (1,243,817)

     Assets January 1, 2005                                 $972,021,147     $937,170,264              $1,004,615           $29,088,813              $4,757,455

     Prepayment Credits                                                 0       (4,154,400)               206,990              3,276,707                670,703
     Contributions                                             46,500,000       46,500,000                      0                      0                      0
     Other Transactions                                                 0                0                      0                      0                      0
     Earnings, Net Expenses                                    64,686,123       62,144,538                 50,476              2,161,997                329,112
     Benefit Payments                                         (90,620,644)     (86,346,471)              (958,801)            (2,007,245)            (1,308,127)
     Transfers                                                          0        1,434,727                 (2,199)              (971,749)              (460,779)

     Assets January 1, 2006                                 $992,586,626     $956,748,658                $301,081           $31,548,523              $3,988,364
     Per Anthem Maine                            8/          992,586,626      957,532,240                 276,718            30,305,489               4,472,179
     Asset Variance                              9/                    0          783,582                 (24,363)           (1,243,034)                483,815


ENDNOTES

  1/ We determined the Anthem Maine and NGS (formerly AdminaStar) Medicare segment pension assets as of January 1, 2003, based on our prior
     segmentation audit of Anthem (A-07-04-00181). We determined the Anthem New Hampshire Medicare segment pension assets as of January 1, 2003,
     based on our prior segmentation audit of New Hampshire-Vermont Health Service (A-07-08-00269). The amounts shown for the “Other” segment
     represent the difference between the Total Company and the Medicare segment. All pension assets are shown at market value.

  2/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements before current year
     contributions in order to avoid incurring unallowable interest. Prepayment credits are transferred to the Medicare segment as needed to cover funding
     requirements.

  3/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal Revenue Service Forms 5500. We
     allocated Total Company contributions to the Medicare segment based on the ratio of the Medicare segment funding target divided by the Total Company
     funding target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for in the “Other” segment until needed to
     fund pension costs in the future.

  4/ The “Other” transactions represent the merger of the Anthem Health Plans of Virginia, Inc., Retirement Program (Anthem Southeast) into the WellPoint
     Cash Balance Pension Plan on December 31, 2003. We obtained the Anthem Southeast Plan pension asset amount as of December 31, 2003, from
     WellPoint’s 2004 actuarial valuation report. These “Other” transactions did not impact the Medicare segment pension assets.

  5/ We obtained net investment earnings from the actuarial valuation reports. We allocated net investment earnings based on the ratio of the segments’ WAV
     of assets to Total Company WAV of assets as required by the CAS.

  6/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained the benefit payments from documents provided
     by WellPoint.

Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                                                                                      7
  7/ We identified participant transfers between segments by comparing valuation data files provided by WellPoint. Asset transfers were equal to the actuarial
     liability determined under the accrued benefit cost method in accordance with the CAS.

  8/ We obtained total asset amounts from documents prepared by WellPoint’s actuarial consulting firm.

  9/ The asset variance represents the difference between our calculation of Medicare segment pension assets and WellPoint’s calculation of the Medicare
     segment pension assets.




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                                                                                         8
          APPENDIX C: FEDERAL REQUIREMENTS RELATED TO PENSION
                             SEGMENTATION

Federal Regulations

Federal regulations (CAS 412.50(a)(4)) require that contributions in excess of the pension cost
assigned to the period be recognized as prepayment credits and accumulated at the assumed
valuation interest rate until applied to future period costs. Prepayment credits that have not been
applied to fund pension costs are excluded from the value of assets used to compute pension
costs.

Federal regulations (CAS 413.50(c)(7)) require that the asset base be adjusted by contributions,
permitted unfunded accruals, income, benefit payments, and expenses. For plan years beginning
after March 30, 1995, the CAS requires investment income and expenses to be allocated among
segments based on the ratio of the segment’s WAV of assets to Total Company WAV of assets.

Federal regulations (CAS 413.50(c)(8)) require an adjustment to be made for transfers
(participants who enter or leave the segment) if the transfers materially affect the segment’s ratio
of pension plan assets to actuarial accrued liabilities.

Medicare Contracts

The Medicare contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).”




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                               9
                                      APPENDIX D: AUDITEE COMMENTS




           ~National c~vernment
           }II{"        serv1ces.
                                                                                                   MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             www.wellpoint.com/ngs



             April 29, 2013

             Mr. PatrickJ. Cogley
             Regional Inspector General for Audit Services
             Office of Audit Services, Region VII
             601 East 12<h Street, Room 0429
             Kansas City, Missouri 64106

             Reference: Report Number A-07-13-00404

             Dear Mr. Cogley:

             We have received the draft audit report from the Inspector General entitled "Anthem Health
             Plans of Maine, Inc. Overstated its Medicare Segment Pension Assets as of January 1, 2006" and
             thank you for the opportunity to respond.


             National Government Services, Inc. (NGS) concurs with the finding and recommendation
             outlined in the report and will make the appropriate adjustments to Medicare segment pension
             assets as of January 1, 2006.

             In our review of the report, the following proposed revisions would enhance the accuracy and
             clarity of the report:

                          •   In the "Executive Summary" section (page i) within the "Background" caption
                              and in the "Introduction" section (page 1) within the "Background" caption,
                              please replace the second paragraph with the following which accurately
                              describes the organization:

                              On June 5, 2000, Anthem Insurance Companies, Inc. (Anthem) acquired
                              Associated Hospital Service of Maine d/b/a Blue Cross Blue Shield of
                              Maine. Effective December 31, 2000, Associated Hospital Service of Maine
                              Retirement Plan merged into the Anthem Cash Balance Pension Plan. On
                              November 30, 2004, Anthem merged with WeliPoint Health Networks, Inc. and
                              changed its name to WeliPoint, Inc. On January 1, 2006, the Anthem Cash
                              Balance Pension Plan was renamed the WeliPoint Cash Balance Pension
                              Plan. Also effective November 17, 2006, WeliPoint consolidated its Government
                              contracting segments into one segment, AdminaStar Federal, Inc. (AdminaStar),
                              which included the Anthem Maine Medicare segment. In addition as of that




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                                      10
           ....LNational G~vernme--.:it
            )II{"     serv1ces.
                                                                                                       MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             W>NVV.wellpoint.com/ngs



             April 29, 2013
             Page 2

                              same date AdminaStar changed its corporate name to National Government
                              Services, Inc. (NGS). Thus, although we are addressing this report to NGS, we
                              will associate the term Anthem Maine with our findings and recommendation
                              regarding the update of the Anthem Maine Medicare segment's pension assets
                              from January 1, 2003, through January 1, 2006.

                          •   On page iii of the Table of Contents, item B under Appendixes should read:

                              Statement of Market Value of Pension Assets for the WellPoint Cash Balance
                              Pension Plan for the Period January 1, 2003, to January 1, 2006

                          •   On page 2, second paragraph under "Findings", in the first line capitalize
                              "Pension Plan".

                          •   On page 4, third line of the paragraph underneath the heading "Earnings, Net
                              Expenses Understated", delete the words "Anthem Southeast and insert
                              "Anthem Health Plans of Virginia, Inc. Retirement Program (Anthem Sou theast).

                          •   On page 7, the second row of the page heading should state "For the WellPoint
                              Cash Balance Pension Plan" vs. "WellPoint Inc. Cash Balance Pension Plan".

             We appreciate the opportunity to respond to this draft report. If you have any further
             questions, I can be reached at 414-459-5606 or via email at todd.reiger@wellpoint.com.

             Sincerely,
                                          Digitally signed by
                                          todd.reiger@wellpoint.com
                                          DN: cn=todd.reiger@wellpoint.com
                                          Date: 2013.04.29 12:07:45 -04'00'
             Todd W. Reiger, CPA
             Medicare Chief Financial Officer
             National Government Services, Inc.

             CC: Michael Kapp- NGS                     Matt Hughes - NGS          Jenenne Tambke - OIG
                 Dave Marshall - NGS                   Jim Elmore - NGS
                Jeff Hannah - NGS                      Joanne lmel- WellPoint
                Jim Maguire - NGS                      Marilyn Bryan- CMS




Anthem Health Plans of Maine, Inc., Pension Segmentation (A-07-13-00404)                                          11
